HHS/OIG-Audit--"Follow-up Review of Public Health Service Controls Over Technology Transfers and Royalty Income, (A-01-94-01502)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Review of Public Health Service Controls Over Technology Transfers and Royalty Income," (A-01-94-01502)
July 8, 1994
Complete
Text of Report is available in PDF format (846 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Public Health Service (PHS) implemented five recommendations made in our prior report.
Specifically, PHS: (1) centralized the technology transfer function by designating the National Institutes of Health as
lead agency for the Federal Technology Transfer Act of 1986 in the PHS, effective June 7, 1994; (2) established procedures
to ensure that valuable foreign patent rights are obtained and filed in a timely manner; (3) completed a reconciliation
of patent applications; (4) declared a material weakness in the FY 1993 FMFIA report; and (5) conducted a detailed internal
control review of technology transfer activities. Since our review determined that PHS took appropriate corrective actions,
we have no additional recommendations to make.